Capital Case - Execution October 5, 2021 at 6:00 central
No. 21-______

In The Supreme Court Of The United States

ERNEST JOHNSON,

Petitioner,
V.
PAUL BLAIR,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF MISSOURI

PETITIONER’S MOTION TO PROCEED
IN FORMA PAUPERIS

Petitioner Ernest Johnson respectfully requests leave to proceed in forma pauperis.

Pursuant to current 18 U.S.C. § 3599, Mr. Johnson was declared indigent and provided counsel by
the Federal District Court for the Western District of Missouri, the Eighth Circuit, as well as this

Court during his habeas proceedings. He was also declared indigent and proceeded in forma
pauperis in his Rule 91 state habeas corpus proceedings in the Missouri Supreme Court, pursuant

to Missouri Supreme Court Rule 84.24. Pursuant to Sup. Ct. R. 39(1), Petitioner therefore moves
to proceed with the filing of his Petition for Writ of Certiorari in forma pauperis.

, Respectfully Submittei

!
^iAURENCE E. KOMPi
Capital Hab^ Unit, Ch/ef
JEREMY sSwEIS

Assistant Federal Public Defender
PAULA K. HARMS
Assistant Federal Public Defender
Federal Public Defender
Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106
laurence komp@fd.orK
(816) 471-8282
COUNSEL FOR PETITIONER
^Counsel ofRecord

